u.s. Department of Labor            Office of Inspector General
                                    Washington, D.C. 20210




     APR 24 2012

   MEMORANDUM FOR:            T. MICHAEL KERR 

                              Assistant Secretary 

                               for Administration and Management 




                              ~P.~                                  

   FROM:                      ELLIOT P. LEWIS 

                              Assistant Inspector General 

                               for Audit 


   Subject: 	                 OIG Review of Complaint Filed by 

                              Waterfront Technologies, Inc. 

                              Report No. 17-12-003-07-711 


   This memorandum transmits the results of the OIG's work related to a request received
   from Senator Barbara A. Mikulski, on behalf of one of her constituents, Ms. Janice
   Kaufmann, President of Waterfront Technologies, Inc. (Waterfront).

   Ms. Kaufmann alleged the Office of the Assistant Secretary for Administration and
   Management (OASAM) award of a Small Business Administration (SBA) Section 8(a)
   set-aside (Section 8(a» contract was flawed based on errors in the Department's
   evaluation of Waterfront's proposal. Ms Kaufmann alleged procurement officials were
   not fair and unbiased in their review of the proposals - that the Department illegally
   manipulated Waterfront's proposal submissions - which resulted in a contract award to
   21st Century Technologies, Inc. (21st Century).

   In a letter dated September 28, 2010, we notified Senator Mikulski that the OIG was
   undertaking a broad review of DOL's procurement process in Fiscal Year 2011 that
   would review matters such as those raised in Ms. Kaufmann's complaint.

   Audit report number 17-12-002-07-711, Department Oversight Needs to Be
   Strengthened to Minimize Procurement Risk, was issued on March 30, 2012. The audit
   found that the Department did not always maintain adequate documentation to
   demonstrate price reasonableness determinations, conflict of interest certifications, or
   Contracting Officer reviews were completed prior to awards. Documentation was also
   lacking to demonstrate procurement officials had ensured contract modifications were
   within the scope of the original contract, or had checked the Excluded Parties List
   System for suspended or debarred contractors prior to award. Although we were able to
   determine that the Department did not award any of the sampled contracts to
   suspended or debarred contractors, because of the lack of documentation by the



                           Workintf.:!or America :\' Workforce
                                                       -2­

Department, we were unable to determine if all of the contracts reviewed were properly
awarded for reasons cited above. In order to ensure that all actions are properly
documented, we recommended that the Assistant Secretary for Administration and
Management update DOL's procurement regulations and guidance, and develop
detailed and standardized procurement procedures.

We reviewed the contract awarded to 21st Century within the context of our audit noted
above. We also tested the 21st Century contract using the Data Collection Instrument
we developed to test all Section 8(a) contracts for our audit. Our testing included but
was not limited to the following areas: documentation of source selection decisions,
price reasonableness determinations, and Excluded Parties List System verifications.
We determined the Department was able to demonstrate that the 21 st Century contract
was awarded based on best value to the Government.

We also analyzed the specific allegations contained in Ms. Kaufmann's November 6,
2009, and December 8,2010, letters to the DIG (Hotline Complaint # 61106). In
addition, we reviewed the U.S. Government Accountability Office's (GAO) bid protest
          1
decisions related to the solicitation in question, and met with officials from the
Department's Office of the Solicitor (SOL) to discuss the solicitation and Waterfront's
related bid protests to GAO. GAO's role in resolving bid protests is to ensure that the
statutory requirements for full and open competition are met. In this regard, we note that
GAO dismissed Waterfront's "protest challenging the evaluation of offerors' past
performance, technical proposals, and price realism ... where the record demonstrates
that the [Department's] evaluations were reasonable."

Based on our analysis and testing described above, the DIG concluded that we also
have no basis to dispute the Department's evaluation of proposals for the questioned
Section 8(a) set-aside or the contract it awarded to 21st Century. Furthermore, there is
no indication that DOL officials engaged in fraud or misconduct with respect to these
procurement matters. DIG considers the allegations raised by Ms. Kaufmann closed
and will inform Senator Mikulski of our findings with respect to those allegations.

Below we summarize our analysis of the allegations contained in Ms. Kaufmann's
letters to the DIG.

Background

On June 29,2009, the Department issued a Request for Proposal (RFP) to provide
support for and expand the Employment and Training Administration (ETA), Office of
Foreign Labor Certification's (OFLC) enterprise-level labor certification program
(formerly titled the iCERT Visa Portal System). The procurement was set aside for
participants in the SBA, Section 8(a) program.


1At the time of fieldwork, protesters had filed 18 separate bid protests with GAO. Five GAO bid protests decisions,
8-401948.5,8-401948.9.8-401948.13,8-401948.16. and 8-401948.18, covered the issues raised by Ms. Kaufmann.
                                          -3­


On September 18, 2009, DOL awarded the contract to Zolon Technologies, Inc.
Waterfront, and another offeror, Inserso Corporation (Inserso), filed bid protests (8­
401948.2 and 8-401948.3) with GAO challenging the award to Zolon. Prior to providing
its report to GAO regarding the protest, the Department advised GAO that it would take
corrective action by reevaluating the offerors' proposals. 8ased on this notice, GAO
dismissed the protests on November 16,2009.

The Department subsequently reevaluated the offerors' proposals, and made a new
award, this time to Inserso. On November 23, 2009, Waterfront and Zolon filed bid
protests (8-401948.5 and 8-401948.6) with GAO to protest the award to Inserso. Prior
to providing its report to GAO regarding the protest, the Department again advised GAO
that it would take corrective action by amending the solicitation, obtaining revised
proposals and making a new award. 8ased on this notice, GAO dismissed the protests
on December 23,2009.

The Department issued RFP amendment 6 on January 20, 2010, and received new
proposals from offerors. 8ased on the Department's evaluation of the offerors' revised
proposals, the Contracting Officer found that 21st Century's proposal merited award
because it was one of two offerors who received the highest overall technical score of
outstanding, received a past performance score equal to all other offerors, and
proposed the lowest overall price. On September 9,2010, DOL selected 21st Century's
proposal for award. On September 20, 2010, Waterfront filed a bid protest with GAO
(8-401948.13) challenging the award to 21 st Century. Waterfront challenged the
Department's evaluation of its past performance and technical proposal, and 21st
Century's price.

On November 18, 2010, as part of its alternative dispute resolution process, GAO
advised the Department that Waterfront's challenges to the evaluation of its past
performance and technical proposal would not likely be sustained, but GAO would likely
sustain Waterfront's protest regarding the agency's evaluation of 21st Century's price.
Specifically, the GAO attorney advised that the record showed the agency did not
conduct a Price Realism Analysis, as required by the solicitation. The Department
advised GAO that it would take corrective action by conducting a Price Realism
Analysis. 8ased on this notice, GAO dismissed Waterfront's protest on November 24,
2010.

On January 24, 2011 the Department advised Waterfront that it had affirmed the award
to 21 st Century. On February 9, 2011 Waterfront filed a bid protest (8-401948.17) with
GAO, again challenging the agency's evaluation of past performance, technical
proposals, and price. Prior to filing its report to GAO regarding this protest, the
Department advised GAO that it would again take corrective action to further address
concerns regarding the agency's Price Realism Analysis. 8ased on this notice, GAO
dismissed the protest on March 14,2011.
                                           -4­

On 	March 18, 2011, DOL advised Waterfront that it had affirmed the award to 21 st
Century. Three days later, Waterfront filed another bid protest with GAO (8-401948.18).
Waterfront contended that the award to 21 st Century was flawed based on errors in the
Department's evaluation of the offerors' past performance, technical proposals, and
proposed prices. GAO issued its decision on June 24, 2011, stating that the record
demonstrated the Department's evaluations were reasonable and it found no basis
to sustain Waterfront's protest of the contract award to 21st Century.

Waterfront's Allegations

     • 	 Allegation 1 - The Department mischaracterized the questioned Section
         8(a) set-aside as a new solicitation rather than a re-competition and
         incorrectly identified the incumbent contractor as Inserso.

        Waterfront contended it performed application development and maintenance
        activities to support the ETA, OFLC visa program operations and worked on the
        iCERT Visa Portal System prior to the award of a separate contract to Inserso
        (#DOLJ089A27771). In addition, Waterfront contended that OASAM changed
        Inserso's contract to include work substantially different from the work specified
        in Inserso's contract and that OASAM changed Inserso's contract after it denied
        bridge funding to Waterfront, effectively stopping work without a "Stop Work
        Order."

        Our review of the solicitation found that in Amendment #2 the Department
        acknowledged an incumbent contractor, Inserso, was performing general
        operations and maintenance activities on legacy systems. The Department
        stated this contractor was also supporting the implementation of a new system
        but maintained that to the best of its knowledge the questioned Section 8(a)
        set-aside solicitation was not a re-competition, as it included new work not
        performed by this contractor. We also interviewed an SOL official regarding
        these allegations and this official told us the Department characterized the
        questioned Section 8(a) set-aside solicitation as new because it involved
        development aspects that were not part of any prior OFLC contract.
        Nonetheless, whether it was a new solicitation or a re-competition, all interested
        parties had to compete for the award and an incumbent would not be treated
        differently from any other bidder.

        The United States Court of Federal Claims is the proper venue for Waterfront to
        claim the Cardinal Change violations noted above. To our knowledge,
        Waterfront has not filed a claim with the Court of Federal Claims. The OIG has
        no basis to dispute the Department's determination with respect to identifying
        Inserso as the incumbent contractor or the characterization of the questioned
        Section 8(a) set-aside as a new solicitation.

     • 	 Allegation 2 - The questioned Section 8(a) set-aside solicitation
         contained an unnecessary and unreasonable requirement that the bidder
                                                           -5­

           obtain a facility security clearance prior to submitting its bid, which
           unduly restricted the range of Section 8(a) contractors that could
           compete for the contract. In addition, the Department did not take
           effective corrective action with regard to an SBA Certificate of
           Competency determination.

           Waterfront contended that the questioned Section 8(a) set-aside solicitation
           contained an unnecessary and unreasonable requirement that the bidder obtain
           a facility security clearance prior to submitting its proposal, which unduly
           restricted the range of Section 8(a) contractors that could compete for the
           contract.

           Waterfront did not have a facility security clearance when it submitted its
           proposal in response to the solicitation. As a result, the Department determined
           that Waterfront was not eligible for award, and Waterfront filed a bid protest
           with GAO. GAO took the position that (1) the ability to obtain a security
           clearance is generally a matter of responsibility, and (2) under the Small
           Business Act, the SBA has conclusive authority to determine the responsibility
           of small business concerns. The Department agreed to refer the matter of
           Waterfront's responsibility to the SBA for a Certificate of Competency (COC)
           determination, which was noted by GAO in its bid protest decision. 2 The SBA
           declined to consider Waterfront for a COC determination because the
           Department had subsequently accepted Waterfront's proposal. The Department
           indicated it accepted Waterfront's proposal since the company had obtained an
           interim secret facility clearance. SBA stated in its January 4, 2010, letter·to
           GAO regarding Waterfront protest B-401948.5 that since the Department no
           longer viewed Waterfront as technically unacceptable for failing to meet the
           interim security clearance requirement, the SBA concluded it did not need to
           evaluate Waterfront for a COCo

           Since the Department referred Waterfront to SBA for a COC determination,
           subsequently did not find Waterfront to be unacceptable or non-responsible for
           failure to have an interim secret facility clearance, considered Waterfront's
           proposal as technically acceptable, and included Waterfront's proposal in its
           technical review of proposals, the OIG concludes that the Department took
           effective corrective action with regard to an SBA COC .determination.




2Per the Federal Acquisition Regulation (FAR), Part 19, Subsection 19.601(a), a      eoe   is the certificate issued by the
SBA stating that the holder is responsible (with respect to all elements of responsibility, including, but not limited to,
capability, competency, capacity, credit, integrity, perseverance, tenacity, and limitations on subcontracting) for the
purpose of receiving and performing a specific Government contract.
                                                       -6­

      • 	 Allegation 3 - The Department misled Waterfront by not disclosing the
          deficiencies in Waterfront's staffing plan when Waterfront's
          disqualification was rescinded, but used this same weakness later in
          Waterfront's debriefing letter as part of the basis to lower Waterfront's
          score within the competition of the questioned SSA Section 8(a) set­
          aside.

          Waterfront contended that OASAM was obligated to provide an explanation of
          any deficiencies and allow Waterfront an opportunity to correct them,
          particularly after Waterfront repeatedly sought clarification about the status of
          its staffing plan.

          The staffing plan is one of the elements that the Department considered as part
          of its technical evaluation of proposals. In bid protest decisions B-401948.16
          and B-401948.18, GAO denied Waterfront's protest, stating that the record
          demonstrated the Department's evaluation of technical proposals was
          reasonable. Based on our review of GAO's bid protest decision, we could not
          determine whether issues regarding Waterfront's staffing plan were raised.
          Regardless, GAO would be the appropriate venue in which to raise these
          issues.

      • 	 Allegation 4 - The Department awarded a 100 percent SSA Section 8(a)
          set-aside contract to Zolon Technologies, Inc., who misrepresented itself
          and the size of its business.

          Waterfront contended that the Department awarded a 100 percent SBA Section
          8(a) set-aside contract to Zolon Technologies, Inc., who misrepresented itself
          and the size of its business. The SBA has sole jurisdiction over small business
          size verification and the FAR requires Contracting Officers to accept SBA's
          small business determinations. 3 In addition, as noted in SBA's January 4,
          2010, letter to GAO regarding Waterfront protest B-401948.5, the Department
          terminated Zolon Technologies, Inc.'s contract. As a result, there was no
          reason for the OIG to further review this allegation.

      • 	 Allegation 5 - The Department tampered with Waterfront's past
          performance evaluations in order to ensure that Waterfront would not be
          the successful bidder on the questioned SSA Section 8(a) set-aside.

          Waterfront contended that the Department tampered with Waterfront's past
          performance evaluations by pressuring a DOL official and dismissing his past
          performance evaluation in order to ensure that Waterfront would not be the
          successful bidder on the questioned SBA Section 8(a) set-aside. In addition,
          Waterfront contended that that DOL made post hoc alterations to the evaluation


3Small Business Act, Title 15, United States Code, 637 (b)(6); FAR, Part 19, Subpart 19.301-1(b); and FAR, Part 19,
Subpart 19.301-1(c).
                                     -7­

  record in its preparation of redacted versions of the agency report in response
  to GAO protest 8-401948.13.

  GAO, in its bid protest decisions 8-401948.16 and 8-401948.18, rejected any
  claims by Waterfront that the Department did not properly evaluate Waterfront's
  past performance. GAO stated that the evaluation of past performance,
  including the agency's determination of the relevance and scope of an offeror's
  performance history, is a matter of agency discretion, which GAO will not find
  improper unless unreasonable or inconsistent with the solicitation's evaluation
  criteria. The Department assigned Waterfront an overall evaluation of
  "significant confidence" for past performance. GAO found no basis to question
  the Department's evaluation.

  Our review of the past performance evaluation noted that "significant
  confidence" was the second highest possible rating that could be earned on the
  past performance evaluation and was the same rating that the successful
  bidder received. Furthermore, GAO noted that while Waterfront had the second
  highest possible rating under the past performance factor, DOL could not have
  selected its proposal for award over either 21st Century's or Offeror 3's
  proposals, as those proposals received higher ratings under the technical
  evaluation factor and contained prices that were $9.6 million and $4.4 million
  lower, respectively, than Waterfront's proposal.

  In addition, GAO also rejected Waterfront's collateral argument that DOL made
  post hoc alterations to the evaluation record in its preparation of redacted
  versions of the agency report in response to GAO protest 8-401948.13. GAO
  stated it reviewed the redacted and unredacted versions of the report, and
  concluded that "[t]he underlying information in the different versions of the
  agency report ... had not changed, and there is no indication in the record that
  the agency changed any documentation concerning the evaluation of offerors'
  proposals."

• 	 Allegation 6 - The Department did not perform the Price Realism
    Analysis of offers for the questioned SBA Section 8(a) set-aside
    solicitation as it promised to GAO in response to a GAO bid protest
    decision. When the Department performed the Price Realism Analysis, it
    should have rejected 21st Century's proposed price as unrealistically low.

   Waterfront contended that the Department did not perform the Price Realism
   Analysis of Offers for the questioned S8A Section 8(a) set-aside solicitation as
   it promised to GAO in response to Waterfront's bid protest 8-401948.13, and
   should have rejected 21st Century's proposed price as unrealistically low.

   The GAO attorney assigned to protest 8-401948.13 conducted "outcome
   prediction" alternative dispute resolution during which the attorney expressed
   his view that GAO would likely sustain Waterfront's protest regarding the
                                  -8­

Department's evaluation of 21 st Century's price. Specifically, the GAO attorney
advised that the record showed the Department did not conduct a Price
Realism Analysis, as required by the solicitation. The Department subsequently
advised GAO that it would take corrective action by conducting a Price Realism
Analysis of the offerors' proposals. 8ased on this notice, GAO dismissed the
protest. The Department subsequently completed the Price Realism Analysis
and concluded that 21st Century's proposed price was realistic. In bid protest
decisions 8-401948.16 and 8-401948.18, GAO reviewed the Department's
evaluation of 21st Century's proposed price, including all direct and indirect
components of that price, and concluded that the Department reasonably found
21st Century's proposed price to be realistic. GAO further stated that the
"protester's disagreement with the agency's judgment provides no basis to
sustain the protest."

Given the Department's corrective action with respect to conducting a Price
Realism Analysis as well as GAO's bid protest decisions 8-401948.16 and 8­
401948.18 on this subject, DIG has no basis to dispute the Department's Price
Realism Analysis.
